1a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DALE DANIELSON, a Washington State
employee; BENJAMIN RAST, a
Washington State employee; TAMARA
ROBERSON, a Washington State
employee; as individuals, and on behalf
of all others similarly situated,
Plaintiffs-Appellants,

No. 18-36087
D.C. No.
3:18-cv-05206RJB
OPINION

v.
JAY ROBERT INSLEE, in his official
capacity as Governor of the State of
Washington; DAVID SCHUMACHER, in
his official capacity as Director of
Washington State Office of Financial
Management; AMERICAN FEDERATION
OF STATE, COUNTY, AND MUNICIPAL
EMPLOYEES, COUNCIL 28, AFL-CIO, a
labor organization,
Defendants-Appellees.
Appeal from the United States District Court
for the Western District of Washington
Robert J. Bryan, District Judge, Presiding

2a
Argued and Submitted November 6, 2019
Seattle, Washington
Filed December 26, 2019
Before: Ronald M. Gould and Jacqueline H. Nguyen,
Circuit Judges, and Gregory A. Presnell,* District Judge.
Opinion by Judge Nguyen
————————————————————————
SUMMARY **
————————————————————————
Civil Rights
The panel affirmed the district court’s dismissal of a
claim for monetary relief bought pursuant to 42 U.S.C.
§ 1983 by public sector employees against their union
following the Supreme Court’s decision in Janus v.
American Federation of State, County, & Municipal
Employees, Council 31, 138 S. Ct. 2448 (2018), which

*

The Honorable Gregory A. Presnell, United States District Judge
for the Middle District of Florida, sitting by designation.
**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

3a
held that the compulsory collection of agency fees by unions violates the First Amendment.
Prior to the Supreme Court’s decision in Janus, public sector unions around the country relied on the Supreme Court’s decision in Abood v. Detroit Board of Education, 431 U.S. 209 (1977), which held that the unions
could collect compulsory agency fees from nonmembers
to finance their collective bargaining activities, without
running afoul of the First and Fourteenth Amendments.
State laws and regulations further entrenched the union
agency shop into the local legal framework. In 2018, the
Supreme Court uprooted its precedent by overturning
Abood. Immediately thereafter, the defendant Union
stopped collecting mandatory fees from nonmembers.
Plaintiffs subsequently brought suit seeking, among other things, a refund of all agency fees that were allegedly
unlawfully collected from plaintiffs prior to the Supreme
Court’s decision in Janus.
Joining the Seventh Circuit, the panel held that private parties may invoke an affirmative defense of good
faith to retrospective monetary liability under 42 U.S.C.
§ 1983, where they acted in direct reliance on thenbinding Supreme Court precedent and presumptivelyvalid state law. See Janus v. Am. Fed’n of State, Cty. &
Mun. Emps., Council 31, 942 F.3d 352 (7th Cir. 2019)
(“Janus II”); Mooney v. Ill. Educ. Ass’n, 942 F.3d 368
(7th Cir. 2019). The panel held that the good faith affirmative defense applied as a matter of law, and the district court was right to dismiss plaintiffs’ claim for monetary relief.

4a
————————————————————————
COUNSEL
Jonathan F. Mitchell (argued), Mitchell Law PLLC,
Austin, Texas; Talcott J. Franklin, Talcott Franklin PC,
Dallas, Texas; Eric Stahlfeld, Freedom Foundation,
Olympia, Washington; Christopher Hellmich, Hellmich
Law Group P.C., Anaheim Hills, California; for Plaintiffs-Appellants.
P. Casey Pitts (argued), Scott Kronland, and Matthew J.
Murray, Altshuler Berzon LLP, San Francisco, California; Edward E. Younglove III, Younglove & Coker
P.L.L.C., Olympia, Washington; for DefendantsAppellees.
OPINION
NGUYEN, Circuit Judge:
“Stare decisis — in English, the idea that today’s
Court should stand by yesterday’s decisions — is ‘a foundation stone of the rule of law.’ ” Kimble v. Marvel
Entm’t, LLC, 135 S. Ct. 2401, 2409 (2015) (quoting Michigan v. Bay Mills Indian Cmty., 572 U.S. 782, 798
(2014)). But on rare occasion, even longstanding precedent can be overruled. What happens when the Supreme
Court reverses course, but private parties have already
acted in reliance on longstanding bedrock precedent?

5a
This question lies at the center of this appeal. For
over 40 years, public sector unions around the country
relied on the Supreme Court’s decision in Abood v. Detroit Board of Education, 431 U.S. 209 (1977), which held
that the unions could collect compulsory agency fees
from nonmembers to finance their collective bargaining
activities, without running afoul of the First and Fourteenth Amendments. State laws and regulations further
entrenched the union agency shop into the local legal
framework. But in 2018, the Supreme Court uprooted its
precedent by overturning Abood. In Janus v. American
Federation of State, County, & Municipal Employees,
Council 31, 138 S. Ct. 2448 (2018), the Supreme Court
held that unions’ compulsory collection of agency fees
violated the Constitution.
Many public sector unions, including the defendant
union here, immediately stopped collecting agency fees.
But uncertainty remained as to whether they would be
monetarily liable for their pre-Janus conduct — conduct
that was once explicitly authorized under Abood and
state law.
Throughout the country, public sector employees
brought claims for monetary relief against the unions
pursuant to 42 U.S.C. § 1983. Many unions asserted a
good faith defense in response. Joining a growing consensus, the district court here ruled in favor of the union.
We affirm and hold that private parties may invoke an
affirmative defense of good faith to retrospective monetary liability under 42 U.S.C. § 1983, where they acted in
direct reliance on then-binding Supreme Court precedent and presumptively-valid state law.

6a
I. FACTS AND PROCEDURAL HISTORY
A. Factual Background
Plaintiffs are Washington state employees who work
within bargaining units exclusively represented by the
American Federation of State, County, and Municipal
Employees, Council 28, AFL-CIO (the “Union”). Plaintiffs are not members of the Union and object to financing its activities. Nonetheless, until recently, they were
required to pay agency fees to the Union. Collection of
agency fees from nonmembers was authorized by the
governing collective bargaining agreement, by Washington law, and by over four decades of U.S. Supreme Court
precedent dating back to Abood.
On June 27, 2018, the Supreme Court issued its decision in Janus, reversing course on the constitutionality of
the traditional agency shop regime. Janus overruled
Abood and held that the mandatory collection of agency
fees from objectors violated the First Amendment. 138
S. Ct. at 2486. It is undisputed that, immediately thereafter, the Union stopped collecting mandatory fees from
nonmembers.
B. Procedural Background
On March 15, 2018, Plaintiffs brought a putative class
action pursuant to 42 U.S.C. § 1983 against Jay Inslee, in
his official capacity as Governor of Washington; David
Schumacher, in his official capacity as Director of the

7a
Washington Office of Financial Management; and the
Union. In anticipation of the Supreme Court’s decision in
Janus, Plaintiffs alleged that the imposition of compulsory agency fees violated their constitutional rights under the First and Fourteenth Amendments. They sought
declaratory and injunctive relief, a refund of “all agency
fees that were unlawfully collected from Plaintiffs and
their fellow class members,” and an award of attorney’s
fees and costs.
In the wake of Janus and changes to the Union’s
practices, the district court determined that the claims
against Inslee and Schumacher (the “State Defendants”)
for declaratory and injunctive relief were moot, and they
were dismissed from the case.1 Shortly thereafter, the
Union filed a motion for judgment on the pleadings or
summary judgment. The Union argued that the claims
for declaratory and injunctive relief should be dismissed
as moot, as the parallel claims against the State Defendants had been. The Union further argued that the claim
for monetary relief should be dismissed because it had
relied in good faith on presumptively-valid state law and
then-binding Supreme Court precedent. The district
court granted the Union’s motion as to all claims and
dismissed the case. Plaintiffs then sought reconsideration of the ruling, which the district court denied. This
appeal timely followed.2
1.

Plaintiffs sought monetary relief from only the Union, not the
State Defendants.
2. On appeal, Plaintiffs argue only that the district court erred in
dismissing their claim for monetary relief against the Union.
(continued…)

8a
II. STANDARD OF REVIEW
We have jurisdiction pursuant to 28 U.S.C. § 1291.
We review de novo an order granting summary judgment or judgment on the pleadings. Heliotrope Gen.,
Inc. v. Ford Motor Co., 189 F.3d 971, 975, 978 (9th Cir.
1999).
III. DISCUSSION
We hold that the district court properly dismissed
Plaintiffs’ claim for monetary relief against the Union. In
so ruling, we join the Seventh Circuit, the only other circuit to have addressed the question before us. See Janus
v. Am. Fed’n of State, Cty. & Mun. Emps., Council 31,
942 F.3d 352 (7th Cir. 2019) (“Janus II”); Mooney v. Ill.
Educ. Ass’n, 942 F.3d 368 (7th Cir. 2019). We agree with
our sister circuit that a union defendant can invoke an
affirmative defense of good faith to retrospective monetary liability under section 1983 for the agency fees it
collected pre-Janus, where its conduct was directly authorized under both state law and decades of Supreme
Court jurisprudence. The Union was not required to
forecast changing winds at the Supreme Court and anticipatorily presume the overturning of Abood. Instead, we
permit private parties to rely on judicial pronounce-

They do not contest the dismissal of their claims for declaratory
and injunctive relief.

9a
ments of what the law is, without exposing themselves to
potential liability for doing so.
1. We assume the retroactivity of the rule established in Janus, but that does not answer the
remedial question before this court.
As an initial matter, Plaintiffs urge the retroactive
application of the Supreme Court’s decision in Janus.
But, like the Seventh Circuit, we find it unnecessary to
“wrestle the retroactivity question to the ground.” Janus
II, 942 F.3d at 360. The Supreme Court has made clear
that right and remedy must not be conflated, and that
retroactivity of a right does not guarantee a retroactive
remedy. Davis v. United States, 564 U.S. 229, 243 (2011).
Therefore, we will assume that the right delineated in
Janus applies retroactively and proceed to a review of
available remedies.
2. A private entity may avail itself of a good faith
defense in litigation brought pursuant to 42
U.S.C. § 1983.
The Supreme Court has held that private parties
sued under 42 U.S.C. § 1983 cannot claim qualified immunity, but it has suggested in dicta that such parties
might be able to assert a good faith defense to liability
instead. Wyatt v. Cole, 504 U.S. 158, 168–69 (1992); Lugar v. Edmondson Oil Co., 457 U.S. 922, 942 n.23 (1982).
Although the Supreme Court has never squarely
reached the question, we held in Clement v. City of

10a
Glendale that private parties may invoke a good faith
defense to liability under section 1983.3 518 F.3d 1090,
1096–97 (9th Cir. 2008).
Plaintiffs argue that Clement should be disregarded.
They contend the Ninth Circuit previously reached a
contrary outcome in Howerton v. Gabica, 708 F.2d 380
(9th Cir. 1983), and a three-judge panel cannot overturn
existing precedent.
Because “we are required to reconcile prior precedents if we can do so,” we first assess whether Clement
and Howerton are truly at odds. Cisneros-Perez v. Gonzales, 465 F.3d 386, 392 (9th Cir. 2006). We find the two
decisions reconcilable. Howerton stands for the unremarkable proposition that private parties cannot avail
themselves of qualified immunity to a section 1983 lawsuit. 708 F.2d at 385 n.10. Both the Supreme Court and
later panels of our court have adopted that reading of
Howerton. See, e.g., Wyatt v. Cole, 504 U.S. 158, 161
(1992) (citing Howerton for the proposition that the
Ninth Circuit has held that private parties acting under
color of state law are not entitled to qualified immunity);
F.E. Trotter, Inc. v. Watkins, 869 F.2d 1312, 1318 (9th
Cir. 1989) (citing Howerton for the proposition that “the

3.

Every other circuit that has considered the issue agrees. Janus
II, 942 F.3d at 364; Jarvis v. Cuomo, 660 F. App’x 72, 75 (2d Cir.
2016); Pinsky v. Duncan, 79 F.3d 306, 311–12 (2d Cir. 1996);
Vector Research, Inc. v. Howard & Howard Attorneys P.C., 76
F.3d 692, 699 (6th Cir. 1996); Jordan v. Fox, Rothschild,
O’Brien & Frankel, 20 F.3d 1250, 1276 (3d Cir. 1994); Wyatt v.
Cole, 994 F.2d 1113, 1118 (5th Cir. 1993).

11a
Ninth Circuit has stated that private defendants are not
entitled to qualified immunity in section 1983 actions”).
Although Howerton used the somewhat less precise
language of a “good faith immunity,” 708 F.2d at 385
n.10, we do not read the decision to foreclose a good faith
affirmative defense. Indeed, Howerton cited favorably to
Lugar, 457 U.S. at 942 n.23, for the proposition that
“compliance with [a] statute might be raised as an affirmative defense” to section 1983 liability. 708 F.2d at
385 n.10. As the Supreme Court has explained, “a distinction exists between an ‘immunity from suit’ and other
kinds of legal defenses.” Richardson v. McKnight, 521
U.S. 399, 403 (1997); see also Mitchell v. Forsyth, 472
U.S. 511, 526 (1985) (holding that qualified immunity “is
an immunity from suit rather than a mere defense to liability”). We assume the Howerton court appreciated that
distinction and grappled only with the former. Thus, the
Clement court acted well within its authority to find that,
while private parties cannot assert an immunity to suit
under section 1983, they can invoke a good faith defense.4
We are bound by Clement, which is dispositive as to the
threshold question presented by Plaintiffs.
Plaintiffs also argue that an entity cannot invoke the
good faith defense, just as a municipality cannot invoke
qualified immunity. This argument, however, runs counter to Clement, in which we applied the good faith de4.

Clement is not alone in presuming that Ninth Circuit precedent
did not foreclose a good faith defense. For example, in Jensen v.
Lane County, we considered it an open question whether a private party could invoke “an affirmative good faith defense” to
section 1983 liability. 222 F.3d 570, 580 n.5 (9th Cir. 2000).

12a
fense to an entity defendant. Plaintiffs’ argument is also
at odds with the purpose underlying the good faith defense: that private parties should be entitled to rely on
binding judicial pronouncements and state law without
concern that they will be held retroactively liable for
changing precedents. This principle applies equally to a
private entity as it does to a private individual.
3. The good faith defense is not limited by the
availability of a similar defense to the most
closely analogous common law tort. But, even
if it were, the closest analogue allows a good
faith defense.
Plaintiffs contend that any good faith defense must
be confined to claims for which the most closely analogous common law tort carried a similar immunity. Plaintiffs argue that conversion is the closest common law analogue to their claim against the Union, that good faith is
no defense to conversion, and therefore that good faith
can provide no defense to liability here. Plaintiffs derive
this argument from the Supreme Court’s discussion of
the history of qualified immunity in Wyatt v. Cole:
Section 1983 creates a species of tort liability
that on its face admits of no immunities. Nonetheless, we have accorded certain government
officials either absolute or qualified immunity
from suit if the tradition of immunity was so
firmly rooted in the common law and was supported by such strong policy reasons that Congress would have specifically so provided had it

13a
wished to abolish the doctrine. If parties seeking immunity were shielded from tort liability
when Congress enacted the Civil Rights Act of
1871 — § 1 of which is codified at 42 U.S.C.
§ 1983 — we infer from legislative silence that
Congress did not intend to abrogate such immunities when it imposed liability for actions
taken under color of state law. . . . In determining whether there was an immunity at common
law that Congress intended to incorporate in
the Civil Rights Act, we look to the most closely analogous torts . . . .
504 U.S. 158, 163–64 (1992) (internal citations and quotation marks omitted).
Plaintiffs’ argument fails for several reasons. First,
the above passage applies only to Wyatt’s discussion of
qualified immunity, not to the good faith affirmative defense on which Wyatt expressly reserved judgment. The
rationales behind the two doctrines, and their limitations, are not interchangeable. Accord Janus II, 942
F.3d at 365 (“As several district courts have commented,
the Supreme Court in Wyatt I embarked on the search
for the most analogous tort only for immunity purposes — the Court never said that the same methodology
should be used for the good-faith defense.”).
Second, even qualified immunity is no longer constrained by a common law tort analogy. See Wyatt, 504
U.S. at 166 (noting that “Harlow ‘completely reformulated qualified immunity along principles not at all embodied in the common law’” (quoting Anderson v. Creighton,
483 U.S. 635, 645 (1987))); see also Ziglar v. Abbasi, 137

14a
S. Ct. 1843, 1871 (2017) (Thomas, J., dissenting) (explaining that contemporary courts no longer “ask[] whether
the common law in 1871 would have accorded immunity
to an officer for a tort analogous to the plaintiff’s claim
under § 1983,” but “instead grant immunity to any officer whose conduct ‘does not violate clearly established
statutory or constitutional rights of which a reasonable
person would have known’” (quoting Mullenix v. Luna,
136 S. Ct. 305, 308 (2015) (per curiam))). The Supreme
Court itself has emphasized that it “never suggested that
the precise contours of official immunity can and should
be slavishly derived from the often arcane rules of the
common law.” Anderson, 483 U.S. at 645.
Third, in Clement, we did not limit the applicability of
the good faith defense to common law analogues. 518
F.3d at 1096–97 (9th Cir. 2008). Our decision in Clement
was driven not by the strictures of common law, but rather by principles of equality and fairness — which the
Supreme Court likewise indicated could lay the foundation for a good faith defense to section 1983 liability. See
id. (applying the good faith defense because “[t]he company did its best to follow the law and had no reason to
suspect that there would be a constitutional challenge to
its actions,” and “the constitutional violation arose from
the inactions of the police rather than from any act or
omission by the towing company”); Wyatt, 504 U.S. at
168 (citing “principles of equality and fairness” as the
basis for a potential good faith defense).
Fourth, Plaintiffs’ proposed constraints are contrary
to the principles underlying the good faith defense. As
noted, the availability of the defense arises out of general

15a
principles of equality and fairness — values that are inconsistent with rigid adherence to the oft-arbitrary elements of common law torts as they stood in 1871. It
would be an odd result for an affirmative defense
grounded in concerns for equality and fairness to hinge
upon historical idiosyncrasies and strained legal analogies for causes of action with no clear parallel in nineteenth century tort law. We would find it neither “equal”
nor “fair” for a private party’s entitlement to a good faith
defense to turn not on the innocence of its actions but
rather on the elements of an 1871 tort that the party is
not charged with committing.
Finally, even if we adopted the common-law-analogue
rule, Plaintiffs’ position would still fail. Contrary to
Plaintiffs’ contention, conversion is not the closest common law analogue to the First Amendment violation alleged in this case. Plaintiffs’ First Amendment claim
arises not from the taking of their property, but from
their compelled speech on behalf of a cause they do not
endorse. The unprivileged confiscation of funds from
employees’ paychecks, on its own, would yield no cognizable First Amendment violation. Moreover, unlike in
a traditional conversion case, the Union did not collect
agency fees in contravention of state law; the key theme
underlying Plaintiffs’ section 1983 cause of action is that
the Union collected agency fees in accord with state law.
For these reasons, conversion bears little substantive
similarity to Plaintiffs’ claim.

16a
Rather, we agree with our sister circuit that abuse of
process provides the best analogy to Plaintiffs’ claim.5
Janus II, 942 F.3d at 365. At common law, abuse of process “provided [a] cause[] of action against private defendants for unjustified harm arising out of the misuse of
governmental processes.” Wyatt, 504 U.S. at 164. Although the prototypical abuse of process claim involves
the abuse of judicial process, the tort is not clearly so
confined. Here, the fundamental premise for section
1983 liability against the Union is its alleged abuse of
processes authorized by Washington law — the agency
shop regime and its concomitant agency fee collection
protocol — toward unconstitutional ends. Indeed, it is the
use of governmental processes by the Union that supplies the “color of law” element required to state a claim
under section 1983.
Adopting abuse of process as the appropriate common-law analogue poses no barrier to the Union’s invocation of a good faith defense. This is because, at common law, a private party could avoid liability for abuse of
process if it acted in good faith. Id. at 164; id. at 172
(Kennedy, J., concurring); id. at 176 (Rehnquist, C.J.,
dissenting).

5.

We agree with the Seventh Circuit that “[n]one of these torts is
a perfect fit, but they need not be,” as the search for a common
law analogue is “inherently inexact.” Janus II, 942 F.3d at 365.

17a
4. Plaintiffs’ labeling of their claim as
restitutionary does not preclude application of
the good faith defense.
Plaintiffs argue that any good faith defense is limited
to liability for damages, whereas they seek restitution
from the Union for agency fees collected in contravention of Janus. They contend that “a defendant’s good
faith will never allow it to keep the property or money
that it took in violation of another’s constitutional
rights,” even if good faith might provide a shield to liability for additional damages.
As an initial matter, Plaintiffs’ restitutionary premise
is flawed. Plaintiffs’ constitutionally cognizable injury is
the intangible dignitary harm suffered from being compelled to subsidize speech they did not endorse. It is not
the diminution in their assets from the payment of compulsory agency fees. Accordingly, Plaintiffs seek compensatory damages, not true restitution, when they pray
for a monetary award in the amount of the agency fees
they paid to the Union. The labeling of the relief sought
in restitutionary terms does not change the underlying
nature of Plaintiffs’ claim.
Even accepting Plaintiffs’ restitutionary premise, the
equities do not weigh in favor of requiring a refund of all
agency fees collected pre-Janus. The Union bears no
fault for acting in reliance on state law and Supreme
Court precedent. It collected and spent fees under the
assumption — sanctioned by the nation’s highest court —
that its conduct was constitutional. And the Union provided a service to contributing employees in exchange

18a
for the agency fees it received. Indeed, under Abood, the
Union was required to use those fees for collective bargaining activities that inured to the benefit of all employees it represented — an exchange that cannot be unwound. It is true that, under current law, the employees
suffered a constitutional wrong for which they may have
no viable means of compensation if the good faith defense prevails. Nonetheless, it would not be equitable to
order the transfer of funds from one innocent actor to
another, particularly where the latter received a benefit
from the exchange. Accord Ellis v. Bhd. of Ry., Airline
& S.S. Clerks, Freight Handlers, Exp. & Station Emps.,
466 U.S. 435, 454–55 (1984) (expressing “doubt that the
equities call for a refund” of compulsory payments made
by employees to their union, even if the practice ran
afoul of the law, because objecting employees received a
service in exchange for their money); Janus II, 942 F.3d
at 367 (“[T]hough [plaintiff] contends that he did not
want any of the benefits of [the union’s] collective bargaining and other representative activities over the
years, he received them. Putting the First Amendment
issues . . . to one side, there was no unjust ‘windfall’ to
the union . . . but rather an exchange of money for services.”). Under the circumstances here, the most equitable outcome is a prospective change in the Union’s policy
and practice (which undisputedly occurred), without retrospective monetary liability.

19a
5. The good faith defense applies to the Union as
a matter of law, because the Union was not
required to anticipate the overturning of thenbinding precedent.
The Union’s assertion of a good faith affirmative defense is sound, but that does not fully answer the question before this court. We must next determine whether
the district court correctly found that the good faith defense shielded the Union from retrospective monetary
liability as a matter of law.
In collecting compulsory agency fees, the Union relied on presumptively-valid state law and then-binding
Supreme Court precedent. The Union now faces an assertion of monetary liability not for flouting that law or
misinterpreting its bounds, but for adhering to it. Although some justices had signaled their disagreement
with Abood in the years leading up to Janus, Abood remained binding authority until it was overruled.6 We
agree with our sister circuit that “[t]he Rule of Law requires that parties abide by, and be able to rely on, what
the law is, rather than what the readers of tealeaves predict that it might be in the future.” Janus II, 942 F.3d at
366.

6.

Indeed, not long before Janus, the Supreme Court affirmed the
judgment of this court on the same question presented—albeit
by an equally divided court. Friedrichs v. Cal. Teachers Ass’n,
136 S. Ct. 1083 (2016). Although the outcome in Janus may have
been the writing on the wall, it was not a foregone conclusion.

20a
The Supreme Court has admonished the circuit
courts not to presume the overruling of its precedents,
irrespective of hints in its decisions that a shift may be
on the horizon. See Rodriguez de Quijas v. Shearson/Am. Exp., Inc., 490 U.S. 477, 484 (1989) (“If a precedent of this Court has direct application in a case, yet
appears to rest on reasons rejected in some other line of
decisions, the Court of Appeals should follow the case
which directly controls, leaving to this Court the prerogative of overruling its own decisions.”); Nunez-Reyes v.
Holder, 646 F.3d 684, 692 (9th Cir. 2011) (“As a circuit
court, even if recent Supreme Court jurisprudence has
perhaps called into question the continuing viability of its
precedent, we are bound to follow a controlling Supreme
Court precedent until it is explicitly overruled by that
Court.” (internal quotation marks and brackets omitted)). We decline to hold private parties to a different
standard. It would be paradoxical for the circuit courts to
be required to follow Abood until its overruling in Janus,
while private parties incur liability for doing the same.
The ability of the public to rely on the courts’ pronouncements of law is integral to the functioning of our
judicial system. After all, “[i]t is emphatically the province and duty of the judicial department to say what the
law is.” Marbury v. Madison, 5 U.S. (1 Cranch) 137, 177
(1803). If private parties could no longer rely on the pronouncements of even the nation’s highest court to steer
clear of liability, it could have a destabilizing impact on
the judicial system.
Because the Union’s action was sanctioned not only
by state law, but also by directly on-point Supreme

21a
Court precedent, we hold that the good faith defense
shields the Union from retrospective monetary liability
as a matter of law. In so ruling, we join a growing consensus of courts across the nation.7
See Janus II, 942 F.3d 352; Mooney, 942 F.3d 368; Aliser v.
SEIU Cal., No. 19-CV-00426-VC, 2019 WL 6711470, at *1 (N.D.
Cal. Dec. 10, 2019); Wenzig v. Serv. Emps. Int’l Union Local
668, No. CV 1:191367, 2019 WL 6715741, at *10 (M.D. Pa. Dec.
10, 2019); Hamidi v. SEIU Local 1000, No. 2:14-CV-00319, 2019
WL 5536324 (E.D. Cal. Oct. 25, 2019); LaSpina v. SEIU Pa.
State Council, No. 3:18-2018, 2019 WL 4750423 (M.D. Pa. Sept.
30, 2019); Allen v. Santa Clara Cty. Corr. Peace Officers Ass’n,
No. 18-CV-02230, 2019 WL 4302744 (E.D. Cal. Sept. 11, 2019);
Casanova v. Int’l Ass’n of Machinists, Local 701, No. 19-CV00428 (N.D. Ill. Sept. 11, 2019); Ogle v. Ohio Civil Serv. Emp.
Ass’n, No. 18-CV-1227, 2019 WL 3227936 (S.D. Ohio July 17,
2019), appeal pending, No. 19-3701 (6th Cir.); Diamond v. Pa.
State Educ. Ass’n, No. 18-CV-128, 2019 WL 2929875 (W.D. Pa.
July 8, 2019), appeal pending, No. 19-2812 (3d Cir.); Hernandez
v. AFSCME Cal., No. 18-CV-2419, 2019 WL 2546195 (E.D. Cal.
June 20, 2019); Doughty v. State Emp. Ass’n of N.H., No. 19CV-53 (D.N.H. May 30, 2019), appeal pending, No. 19-1636 (1st
Cir.); Babb v. Cal. Teachers Ass’n, 378 F. Supp. 3d 857 (C.D.
Cal. 2019), appeal pending, No. 19-55692 (9th Cir.); Wholean v.
CSEA SEIU Local 2001, No. 18-CV-1008, 2019 WL 1873021 (D.
Conn. Apr. 26, 2019), appeal pending, No. 19-1563 (2d Cir.);
Akers v. Md. Educ. Ass’n, 376 F. Supp. 3d 563 (D. Md. 2019),
appeal pending, No. 19-1524 (4th Cir.); Bermudez v. SEIU Local 521, No. 18-CV-4312, 2019 WL 1615414 (N.D. Cal. Apr. 16,
2019); Hough v. SEIU Local 521, No. 18-CV-4902, 2019 WL
1785414 (N.D. Cal. Apr. 16, 2019), appeal pending, No. 19-15792
(9th Cir.); Lee v. Ohio Educ. Ass’n, 366 F. Supp. 3d 980 (N.D.
Ohio 2019), appeal pending, No. 193250 (6th Cir.); Crockett v.
NEA-Alaska, 367 F. Supp. 3d 996 (D. Alaska 2019), appeal
pending, No. 19-35299 (9th Cir.); Carey v. Inslee, 364 F. Supp.
3d 1220 (W.D. Wash. 2019), appeal pending, No. 19-35290 (9th
Cir.); Cook v. Brown, 364 F. Supp. 3d 1184 (D. Or. 2019), appeal
(continued…)
7.

22a
Finally, we reject Plaintiffs’ contention that the Union must prove that it “fully complied with the pre-Janus
constitutional strictures on agency shops” to avail itself
of a good faith defense. Plaintiffs’ argument lacks any
grounding in the claims presented in this action. Plaintiffs alleged in their complaint only that the Union’s collection of compulsory agency fees, as a general matter,
violated their rights under the First and Fourteenth
Amendments. Plaintiffs did not allege that the Union violated their rights under Abood or any similar pre-Janus
authority. In fact, Plaintiffs devoted several paragraphs
of their complaint to an effort to discredit Abood as controlling authority, so that their claims might prevail.
Because Plaintiffs’ claims arise from the Union’s reliance on Abood, not allegations that the Union flouted
that authority, the Union need not show compliance with
Abood’s strictures to assert successfully a good faith defense. Such a requirement would be entirely divorced
from the allegations in this action.
IV. CONCLUSION
When the Supreme Court delivered its decision in
Janus, the Union was required to change its policies to
conform to the newly-announced law of the land. And it
did. But the shift in precedent only carries the plaintiff
pending, No. 19-35191 (9th Cir.). See also Jarvis v. Cuomo, 660
F. App’x 72 (2d Cir. 2016); Winner v. Rauner, No. 15-CV-7213,
2016 WL 7374258 (N.D. Ill. Dec. 20, 2016); Hoffman v. Inslee,
No. 14-CV-200, 2016 WL 6126016 (W.D. Wash. Oct. 20, 2016).

23a
employees so far. We hold that the Union is not retrospectively liable for doing exactly what we expect of private parties: adhering to the governing law of its state
and deferring to the Supreme Court’s interpretations of
the Constitution. A contrary result would upend the very
principles upon which our legal system depends. The
good faith affirmative defense applies as a matter of law,
and the district court was right to dismiss Plaintiffs’
claim for monetary relief.
AFFIRMED.

24a
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
DALE DANIELSON,
BENJAMIN RAST, and
TAMARA ROBERSON,

CASE NO. 3:18-cv-05206-RJB

ORDER ON
DEFENDANT AFSCME
Plaintiffs, COUNCIL 28’S MOTION
v.
FOR JUDGMENT ON
THE PLEADINGS OR
AMERICAN
SUMMARY JUDGMENT
FEDERATION OF
STATE, COUNTY, AND
MUNICIPAL
EMPLOYEES,
COUNCIL 28, AFL-CIO,
Defendants.
THIS MATTER comes before the Court on Defendant American Federation of State, County, and Municipal Employees, Council 28, AFL-CIO’s Motion for
Judgment on the Pleadings or Summary Judgment. Dkt.
41.
This case centers on the allegation that Plaintiffs,
State of Washington employees who object to “forced”
union membership, should not be required to pay com-

25a
pulsory agency1 fees in violation of the First Amendment. See generally, Dkt. 1. It is alleged that the Union
Defendants use agency fees to advance pro-union ideological or political purposes, to which Plaintiffs object.
Id. at ¶20-22. Plaintiffs seek (1) declaratory judgment
that imposing agency fees violates the First Amendment; (2) injunctive relief prohibiting collection of said
fees; and (3) monetary relief2 for agency fees wrongly
collected; and (4) attorney’s fees and expenses. The
Complaint names as defendants Jay Inslee, State of
Washington Governor, David Schumacher, Director of
the Office of Financial Management (collectively, “the
State Defendants”), and the defendant that filed the
pending motion, American Federation of State, County,
and Municipal Employees, Council 28, AFL-CIO (“the
Union Defendant”).
The Court previously dismissed claims against the
State Defendants as moot. Dkt. 39. As explained at
length, the June 27, 2018 decision in Janus v. Am. Fed’n
of State, Cty. & Mun. Employees, Council 31, 138 S. Ct.
2448, 2459 (2018) overruled fifty-year precedent in
Abood v. Detroit Bd. Of Ed., 431 U.S. 209 (1977) and its
progeny. Id. at 2-4. Under Janus, and in the context of
public sector employment, no form of payment to a un1.

2.

The State Defendants elsewhere refer to the fees as “representation fees,” but the facts and inferences should be made in favor of the nonmoving party, Plaintiffs, so the Court will refer to
them as “agency fees.”
Plaintiff characterizes its request for monetary relief as one for
equitable relief, disgorgement and refund; the Union Defendant
calls this “damages.”

26a
ion, including agency fees, can be deducted or attempted
to be collected from an employee without the employee’s
affirmative consent. Id. at 2486. See also, id. at 2459 (Syllabus). Because the State voluntary ceased collecting
agency fees, and the State could not reasonably be expected to equivocate or reverse course as to the agency
fees, there was no case or controversy against the State.
Id.
The instant motion, filed by the Union Defendant,
argues for dismissal on grounds similar to the State Defendants. According to the Union Defendant, the requests for declaratory and injunctive relief should be
dismissed on mootness grounds, and the request for
monetary relief should be dismissed because the Union
Defendant is shielded from § 1983 liability by its good
faith belief in a presumptively valid state law, only later
declared unconstitutional in Janus. Dkt. 41 at 9-17.
As an initial matter, the requests for declaratory and
injunctive relief should be dismissed on mootness
grounds, for the same reasons discussed previously. See
Dkt. 39 at 2-4. In sum, there is no reasonable likelihood
that agency fees will be used and collected from Plaintiffs, either by the State Defendants or the Union Defendant.
On the issue of whether Plaintiffs are entitled to
monetary relief for agency fees retained by the Union
Defendant, the core — and ultimately dispositive — issue
is whether the good faith defense should excuse the Union Defendant’s use of agency fees from public-sector
employees absent their consent.

27a
The Union Defendant argues that the defense of
good faith applies and should excuse the Union Defendant from § 1983 liability. Dkt. 41 at 11-17. (The Union
Defendant acknowledges, and Court agrees, that qualified immunity, which shields the State Defendants from
damages, does not apply to the Union Defendant, a private actor.) The Union Defendant points to Wyatt v.
Cole, 994 F.2d 1113 (5th Cir. 1993), a Fifth Circuit case,
and other authority, including Clement v. City of Glendale, 518 F.3d 1090, 1097 (9th Cir. 2008), in the Ninth
Circuit. Id. at 12. When applied here, the Union Defendant argues, the defense should protect the Union Defendant from monetary liability, because it collected
agency fees according to the laws in effect at the time,
including a presumptively valid state law and thenbinding Supreme Court precedent, Abood, 431 U.S. at
211-12.
Plaintiffs argue if the good faith defense applies, under Wyatt v. Cole, 504 U.S. 158 (1992), this Court should
look to the most analogous common-law tort and recognize the defense only if that analogous common-law tort
would have conferred similar immunities when § 1983
was enacted. Dkt. 48 at 7, 8. Because the most analogous
common law tort is conversion, Plaintiffs reason, the
good faith does not apply, but even if it does, the Union
Defendant has made no showing of a subjective state of
mind. Id.
There is ample authority for the good faith defense to
apply to this case. The Supreme Court did not foreclose
the defense, Wyatt, 504 U.S. at 168-69, and the defense
has been relied upon in several circuit courts, including

28a
the Ninth Circuit. Clement, 518 F.3d at 1096-97; Pinsky
v. Duncan, 79 F.3d 306, 311-12 (2d Cir. 1996); Vector Research, Inc. v. Howard & Howard Attorneys, P.C., 76
F.3d 692, 698-99 (6th Cir. 1996); Jordan v. Fox, Rothschild, O’Brien & Frankel, 20 F.3d 1250, 1275-78 (3d Cir.
1994). See also, Franklin v. Fox, No. C 97-2443 CRB,
2001 WL 114438, at *6 (N.D. Cal. Jan. 22, 2001). Although the precise contours of the defense have not been
clearly defined by the Supreme Court, circuit courts, including the Ninth Circuit, have acknowledged its general
contours of equity and fairness. Under the Fifth Circuit
construction of the defense in Wyatt, “private defendants
. . . may be held liable for damages under § 1983 only if
they failed to act in good faith in invoking the unconstitutional state procedures, that is, if they either knew or
should have known that the statute upon which they relied was unconstitutional.” Wyatt, 994 F.2d at 1118.
Applied here, the facts, either those alleged or those
not subject to reasonable dispute, justify allowing the
Court to apply the good faith defense. When engaging in
bargaining representation and other pro-union activities
funded by Plaintiffs’ agency fees, the Union Defendant
followed the then-applicable laws, because prior to Janus, collection and use of compelled agency fees was lawful. Dkt. 1 at ¶¶20, 21, 23; Janus, 138 S. Ct. at 2459.
Terms for compelled agency fees were negotiated by a
contract with the State of Washington under a Collective
Bargaining Agreement. Id at ¶17. The constitutional defect — compelling collection of agency fees used for political or ideological activities and contrary to Plaintiffs’ beliefs — could not have been identified by the Union De-

29a
fendant, because although the Supreme Court hinted at
overruling Abood, it did not explicitly do so until Janus.
Dkt. 1 at ¶23; Janus, 138 S. Ct. at 2459. See Harris v.
Quinn, 134 S. Ct. 2618, 2632-34 (2014) and Knox v. Serv.
Employees Int’l Union, Local 1000, 567 U.S. 298, 314
(2012). Immediately after Janus was issued, collection of
compelled agency fees ceased, to fully comply with Janus. Dkt. 1 ¶23; Dkt. 27 at 1-3; Dkt. 27-1 at 2; Dkt. 27-2
at 2; Dkt. 28 at 1, 2, ¶¶4-6; Dkt. 28-2 at 2. In sum, the circumstances of this case justify shielding the Union Defendant from monetary liability for pre-Janus agency
fees under the good faith defense, especially where to
not do so would result in an inconsistent outcome —
dismissal of the State Defendants, but monetary liability
of a private party.
Plaintiffs argue that if the good faith defense applies,
under Supreme Court precedent in Wyatt, the Court
must analogize Plaintiffs’ First Amendment claim to a
state common law claim. Plaintiffs’ construction of the
good faith defense lacks precedent in the Ninth Circuit.
The Ninth Circuit did not so interpret Wyatt in Clement.
But compare to, e.g., Second Circuit in Pinsky v. Duncan, 79 F.3d at 311-12 (analyzing analogous common law
claims). If the ‘common law analogue’ requirement from
Wyatt does apply, conversion is not the most closely
analogous common law claim. Conversion involves taking
another’s property, regardless of intent, whereas the
gravamen of the First Amendment claim in this case is
that the Union Defendant expended compelled agency
fees on political and ideological activities that Plaintiffs
oppose. A dignitary tort, such as defamation, or tortious

30a
interference with a contract or business expectancy,
more closely resembles the First Amendment claim. See
New York Times Co. v. Sullivan, 376 U.S. 254, 280 (1964)
(defamation); Pac. Nw. Shooting Park Ass’n v. City of
Sequim, 158 Wn.2d 342 (2006) (tortious interference). As
astutely observed by the Union Defendant, Plaintiffs’
First Amendment claim here “turns not upon [the Union
Defendant’s] receipt of their ‘property’ but upon the dignitary harm resulting from being compelled to support
speech with which they disagree[.]” Dkt. 49 at 11.
Plaintiffs argue that if the good faith defense applies,
the defendant has the burden to show its subjective state
of mind, and Plaintiffs should be given the opportunity
for discovery on the issue. Admittedly, the subjective
state of mind of a party asserting good faith is a common
inquiry in cases discussing the defense. For example, in
a case discussing good faith defense precedent, a district
court analyzed subjective intent, citing to Wyatt and its
progeny for the “universal[] hold[ing] that a private defendant shall not be liable . . . if he did not subjectively
believe that the conduct . . . was unconstitutional.”
Franklin v. Fox, No. C 97-2443 CRB, 2001 WL 114438,
at *6 (N.D. Cal. Jan. 22, 2001). Clement echoes this rule,
when concluding that a private actor “did its best to follow the law and had no reason to suspect that there
would be a constitutional challenge to its actions.” Clement, 518 F.3d at 1097.
But applying the subjectivity standard to this case
results in a perverse outcome, if followed to its logical
conclusion. Assuming that the Union Defendant (or,
more accurately, an employee of the union), subjectively

31a
believed the Supreme Court would not overrule Abood,
the Union Defendant’s collection of agency fees, up until
Janus, would be shielded by the good faith defense, but
not so if the same employee instead subjectively believed
(correctly) that the Supreme Court would overrule
Abood. This is an awkward result, because as noted
elsewhere, “[a]ny subjective belief [the union] could have
had that the precedent was wrongly decided and should
be overturned would have amounted to telepathy.” Winner v. Rauner, 2016 WL 7374258 * 5 (N.D.Il. 2016).
Although the overruling of Abood had been considered by the Supreme Court, see Harris, 134 S. Ct. at
2632-34 and Knox, 567 U.S. at 298, the Union Defendant
should not be expected to have known that Abood was
unconstitutional, because the Supreme Court had not yet
so decided. Inviting discovery on the subjective anticipation of an unpredictable shift in the law undermines the
importance of observing existing precedent and ignores
the possibility that prevailing jurisprudential winds may
shift. This is not a practical, sustainable or desirable
model. The good faith defense should apply here as a
matter of law. The Union Defendant cogently summarizes the reason: “agency fees were constitutional at the
time . . . [and] no amount of discovery could show that
[the Union Defendant] knew or should have known
something that was not true.” Dkt. 49 at 13.
In sum, the good faith defense applies, and when applied here, there is no issue of material of fact as to any
facts that collectively justify shielding the Union Defendant from monetary liability for pre-Janus agency
fees collected from Plaintiffs. The Union Defendant fol-

32a
lowed the law, and could not reasonably anticipate that a
Supreme Court action would create a constitutional challenge to its actions. The Union Defendant’s actions were
authorized by the law and the State of Washington, and
the actions of the State were apparently lawful. The Union Defendant acted in good faith. Summary judgment of
dismissal should be granted in favor of the Union Defendant.
***
THEREFORE, it is HEREBY ORDERED that Defendant American Federation of State, County, and Municipal Employees, Council 28, AFL-CIO’s Motion for
Judgment on the Pleadings or Summary Judgment (Dkt.
41) is GRANTED. The Union Defendant is DISMISSED
from the case. Dismissal of claims for declaratory and
injunctive relief is without prejudice.
Because all other defendants were previously dismissed from the case, all other motions are stricken and
the case is HEREBY DISMISSED.
IT IS SO ORDERED.
The Clerk is directed to send uncertified copies of
this Order to all counsel of record and to any party appearing pro se at said party’s last known address.
Dated this 28th day of November, 2018.
/s/ Robert J. Bryan
ROBERT J. BRYAN
United States District Judge

